<html>
<title> - NEXT STEPS ON U.S. POLICY TOWARD NORTH KOREA</title>
<body><pre>[Senate Hearing 115-814]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-814
 
                        NEXT STEPS ON U.S. POLICY 
                           TOWARD NORTH KOREA

=======================================================================

                                HEARING


                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIA,
                     THE PACIFIC, AND INTERNATIONAL
                          CYBERSECURITY POLICY

                                 OF THE
                                 
                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION



                               __________

                              JUNE 5, 2018
                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       

       
       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         
                            ______                      
     

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-447 PDF            WASHINGTON : 2020 
                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



            SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,        
             AND INTERNATIONAL CYBERSECURITY POLICY        

                CORY GARDNER, Colorado, Chairman        
JAMES E. RISCH, Idaho                EDWARD J. MARKEY, Massachusetts
MARCO RUBIO, Florida                 JEFF MERKLEY, Oregon
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia





                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Gardner, Hon. Cory, U.S. Senator From Colorado...................     1

Markey, Hon. Edward J., U.S. Senator From Massachusetts..........     3

Yun, Hon. Joseph Y., Senior Advisor, The Asia Center, United 
  States Institute of Peace, Washington, DC......................     5
    Prepared Statement...........................................     7

Cha, Victor, Senior Adviser and Korea Chair, Center for Strategic 
  and International Studies, Washington, DC......................     8
    Prepared Statement...........................................    10





                              (iii)        


                       NEXT STEPS ON U.S. POLICY 
                           TOWARD NORTH KOREA

                              ----------                              


                      Tuesday, June 5, 2018

                           U.S. Senate,    
Subcommittee on East Asia, The Pacific, and
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Present: Senators Gardner [presiding], Risch, Rubio, 
Barrasso, Isakson, Markey, Murphy, Kaine, and Cardin.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This committee will come to order.
    Let me welcome all of you to the seventh hearing for the 
Senate Foreign Relations Committee on East Asia, the Pacific, 
and International Cybersecurity Policy in the 115th Congress.
    This hearing comes at a historic moment for our policy 
toward North Korea. A week from today in Singapore, President 
Trump will meet Kim Jong Un, the first summit between a sitting 
United States President and a North Korean dictator. The stakes 
could not be higher for this meeting and its outcomes because 
there is no greater diplomatic offering that the United States 
can offer to resolve this crisis than the President of the 
United States.
    Over the last three decades, North Korea has built the 
world's largest illicit arsenal of mass destruction, including 
nuclear, ballistic missile, biological, chemical, and 
radiological weapons programs. According to intelligence 
assessments, North Korea is getting dangerously close to a 
viable intercontinental ballistic missile capability that can 
threaten the United States mainland. North Korea remains the 
world's most brutal violator of human rights, with up to 
200,000 men, women, and children in gulag-style detention 
camps. A landmark 2014 United Nations Human Rights Report said 
that the regime is conducting genocide against its own people.
    Despite the grave threat the regime has posed, when I came 
to the Senate in 2015, few were focused on the North Korea 
problem set, which led me to refer to Kim Jong Un as ``the 
forgotten maniac.'' The United States policy at the time, 
called ``strategic patience,'' was clearly failing to deter the 
regime. It was Congress that took the lead and recognized that, 
without an immediate change in U.S. policy and a robust global 
pressure campaign, we could never gain the necessary leverage 
to force the regime to change course and to denuclearize.
    On February 10th, 2016, the United States Senate passed my 
North Korea Sanctions and Policy Enhancement Act, or NKSPEA, by 
a vote of 96 to zero. President Trump signed it into law 8 days 
later. The bill was the first--first--standalone legislation 
demanding sanctions against North Korea and its enablers for 
proliferation, human rights, and cybersecurity violations. 
NKSPEA has become the backbone of the current maximum pressure 
policy toward the regime. According to the Foundation for the 
Defense of Democracies, the North Korea Sanctions and Policy 
Enhancement Act, which came into effect February 18th, 2016, 
marked a turning point in U.S. sanctions. The law spurred the 
Obama administration to issue new designations while creating 
the framework for the Trump administration's maximum pressure 
policy.
    Since the passage of NKSPEA, U.S. sanctions against North 
Korea have increased by 276 percent, or almost threefold. Even 
with this increase, North Korea moved from the eighth most 
sanctioned nation by the United States to being the fourth most 
sanctioned nation today. Remarkably, the FDD also found that, 
in the entire 8 years of the Obama administration, there were 
154 sanctions designations against North Korea. In the first 16 
months of the Trump administration, there have already been 156 
such designations. The Trump administration has also conducted 
a successful international diplomatic isolation campaign 
against North Korea resulting in over 20 nations downgrading or 
ending commercial and diplomatic ties with the regime. For 
example, the Philippines was once North Korea's third largest 
trading partner, with nearly 100 million in bilateral trade. In 
September of 2017, Manilla ended all trade with Pyongyang, a 
resounding success for U.S. diplomacy.
    But, now that we have painstakingly built the sanctions 
leverage and brought Pyongyang to the negotiating table, it 
would be misguided to let up on the pressure valve. In fact, we 
should continue to build our diplomatic leverage through 
additional sanctions, including Senator Markey and I--our 
bipartisan legislation, called the LEED Act, which mandates a 
global trade embargo against the regime. United States law with 
regard to North Korea, established through Section 402 of the 
NKSPEA, is clear: There can be no sanctions relief for North 
Korea unless the regime makes significant progress toward 
completely, verifiably, and irreversibly dismantling all of its 
nuclear, chemical, biological, and radiological weapons 
programs, including all programs for the development of systems 
designed, in whole or in part, for the delivery of such 
weapons. Any negotiations with North Korea must ultimately meet 
the high bar of Section 402.
    So far, although it has suspended missile tests, North 
Korea has not taken any concrete or verifiable steps toward 
denuclearization. So, it is my hope that, during the summit, it 
will be made clear to the regime that the only goal of our 
negotiations is denuclearization, a message that President 
Trump, Secretary Pompeo, and Secretary Mattis have all publicly 
reiterated.
    Now I will turn it over to our Ranking Member, Senator 
Markey, for his opening comments and thank him for being a 
great partner as we have worked together to solve this great 
challenge.
    Senator Markey.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Yeah, thank you, Mr. Chairman, very much. 
And thank you for convening this critical hearing. And welcome 
back to Washington from Singapore. I know you went to the 
Shangri-La Dialogue. I am sorry that I could not join you 
there. But, it is great to be sitting next to you again 
addressing this key foreign policy challenge that we face in 
Asia. Your leadership here in the Senate and on the Committee 
is invaluable, and I am grateful for your partnership and your 
friendship.
    I also want to thank our fantastic witnesses for being 
here, as well. You are two of the top North Korea experts in 
the country, and we are appreciative of your many years of 
service on behalf of the American people.
    I also want to thank all of our colleagues who have been 
working on this issue, as well.
    Our hearing could not be more important, as Congress's 
involvement will be crucial in any successful diplomatic effort 
with North Korea. And the strong interest which Congress shows 
is testament to that fact.
    This committee should help shape the parameters of our 
North Korea policy and set the stage for the upcoming summit 
meeting. While the White House will make some decisions behind 
closed doors, the implications of those decisions necessitate a 
public debate. We also must ensure that these policy efforts 
are appropriately resourced and overseen.
    It is no secret that I do not agree with President Trump on 
everything, but I welcome his turn towards diplomacy, even if 
his methods are unorthodox. A combination of direct engagement 
backed by pressure is the only solution to the North Korean 
threat to the United States, our allies, and to the broader 
region. And I have long advocated for this approach, including 
through previous hearings of this subcommittee.
    And we are here today to help pave the way for greater 
cooperation between Congress and the White House, both before 
and after the upcoming summit, because, for a meaningful, 
lasting agreement, the executive and legislative branches must 
both sing from the same sheet of music. Without that 
collaboration, we will not successfully reduce the threats. And 
the threats are significant. Unlike with other countries, North 
Korea already possesses thermonuclear warheads and the 
ballistic missiles to deliver them. It has shorter-range 
missiles that cast a dark shadow over our allies, South Korea 
and Japan. Pyongyang possesses some of the foulest toxins on 
the planet, and it brutally represses, imprisons, tortures, and 
kills its own citizens. So, we must address these myriad 
threats, and there is serious debate about how best to do it.
    But, one thing remains crystal clear. There is no military 
solution to this problem. Direct diplomacy, backed by economic 
pressure, is the only approach that will successfully resolve 
the North Korea crisis. But, while North Korea is coming to the 
table, we have not yet compelled it to accept our definition of 
``denuclearization,'' one where the Kim regime relinquishes its 
nuclear weapons and its means to produce more. It appears that 
Kim Jong Un, having stockpiled a wide range of illicit and 
dangerous weapons, believes that he is negotiating from a 
position of strength rather than from a position of weakness. 
And, while the Trump administration said that it has imposed 
maximum pressure, the truth is, we have not yet reached that 
level. North Korea must understand that, even if China eases 
the pressure, we, in Congress, are ready to step in to tighten 
the screws, because, without sufficient pressure, we can 
expect, and must prepare for, the old Kim family playbook.
    History shows us that North Korea tries to, one, frontload 
rewards and delay concessions, as it did during the Clinton 
administration negotiations; two, use sleight of hand to make 
irrelevant actions seem meaningful, such as when it imploded 
the Yongbyon cooling tower during the Bush years; and, three, 
exploit ambiguity, as North Korea did during the Obama 
administration, when a claimed ballistic missile test was a 
peaceful space launch. We want reconciliation, not repetition. 
Because North Korea's negotiating history is filled with 
obfuscation, false concessions, and broken promises, we must 
approach these discussions with eyes wide open.
    I believe that we can all agree that, ultimately, we need a 
plan that stops North Korea's plutonium production and uranium 
enrichment, that suspends and then eliminates its ballistic 
missile program, that permanently dismantles and removes all of 
its nuclear, chemical, and biological weapons, and that 
implements a compliance inspection program with a strong 
verification regime. Suspend, eliminate, dismantle, remove, and 
verify every step of the way.
    Although there are few disagreements over what a deal 
should look like, the trick is figuring out how to get there, 
to successfully navigate the hazards. Number one, do not sell 
out our allies. We must not allow North Korea to believe that 
the alliance framework, which has served as the foundation of 
regional peace and security, is anything other than 
unshakeable. Two, do not prematurely release the pressure 
valve. China, North Korea's chief enabler, is becoming a 
problem in this regard. There are already reports that China is 
easing pressure on its neighbor. North Korea goods already are 
easier to find in China, despite being banned by United Nations 
Security Council resolutions. If China wants to be taken 
seriously as a responsible global power, it cannot shirk its 
duties to enforce sanctions on serial violators like North 
Korea. And if the talks do not go well, or if North Korea 
backslides at any point, we would want China to consider 
cutting off all of its crude oil exports to the North Korean 
regime. Without measures like this, and without a clear 
understanding of our previous diplomatic efforts with North 
Korea, we could fail. And we owe it to our fellow Americans to 
successfully reduce the threats that we face.
    I look forward to exploring these issues today, and I want 
to thank our witnesses and the countless other national 
security professionals working so diligently to address these 
challenges.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    And the eyes of the world are on Singapore, where the world 
looks at a historic opportunity for peace. With many questions 
unanswered--and no one is better suited to answer those 
questions than the two witnesses before us today--I am going to 
introduce both witnesses, and then turn it over to you for your 
testimony, then we will take questions.
    Our first witness is Dr. Victor Cha, who serves as Senior 
Advisor and Korea Chair at the Center for Strategic and 
International Studies. From 2004 to 2007, Dr. Cha served as 
Director for Asian Affairs at the National Security Council, 
where he was responsible primarily for Japan, the Korean 
Peninsula, Australia, New Zealand, and Pacific Island Nation 
Affairs. He was also the deputy head of the delegation for the 
United States at the Six Party Talks in Beijing, and received 
two Outstanding Service commendations during his tenure at the 
National Security Council. I will note that Dr. Cha testified 
at this subcommittee in October 2015, when few were paying 
attention to North Korea. No one was in attendance at the 
committee hearing and the grave challenge that the regime posed 
to the United States and our allies was just being fully 
understood.
    Welcome back, Dr. Cha. And thank you for your service.
    Our second witness today is Ambassador Joseph Yun, who 
currently serves as a Senior Advisor for the Asia Program at 
the U.S. Institute of Peace. Ambassador Yun had a distinguished 
33-year career at the Department of State before his recent 
retirement in February of this year. In his last assignment, he 
served as Special Envoy on North Korea from 2016 to 2018, 
leading the Department's efforts with regard to North Korea 
policy and coordination. From 2013 to 2016, he served as U.S. 
Ambassador to Malaysia. And, prior to that, he served as 
Principal Deputy Assistant Secretary for East Asian and Pacific 
Affairs.
    Welcome, Ambassador Yun. Thank you for your service.
    And we will begin with your testimony.
    Thank you.

   STATEMENT OF HON. JOSEPH Y. YUN, SENIOR ADVISOR, THE ASIA 
    CENTER, UNITED STATES INSTITUTE OF PEACE, WASHINGTON, DC

    Ambassador Yun. Thank you very much, Chairman Gardner, 
Ranking Member Markey, and members of the subcommittee. Thank 
you for the opportunity to testify this morning on next steps 
on U.S. policy toward North Korea.
    Mr. Chairman, with your permission, I will submit a longer 
written testimony for the record.
    Senator Gardner. Without objection.
    Ambassador Yun. I would like to make five points on where 
we are, where--I believe where we are, where we might go in 
regard to the threat posed by the North Korean nuclear weapons.
    First, I believe we are in a materially different place 
than where we were a year ago, or even 6 months ago. During 
that time, North Koreans have stopped their provocative missile 
and nuclear tests. The United States has agreed to hold the 
first-ever summit with the North Korean leader, Kim Jong Un, 
and, as a result, tensions are materially down.
    Second, even compared with a month ago, there has been a 
noticeable change in what the U.S. administration is looking 
for in the upcoming summit meetings. Key words from the 
administration now seem to be ``process'' and ``progress,'' a 
big change from the ``all in one'' or ``big bang'' 
denuclearization championed by senior administration officials 
only a few weeks ago.
    Third, related to that, however, is the concern now on 
whether the administration is now placing the bar too low on 
denuclearization. True, while it is a good development that the 
administration is more realistic, we should not accept North 
Korea as a nuclear-weapons state. Complete denuclearization, 
which means dismantlement, removal of all fissile material and 
production capacity, must be the goal.
    My fourth point is that, in order to get there, there must 
be concrete steps committed by North Korea in the upcoming 
Singapore meeting. There are some easy, immediate deliverables 
that should not be difficult for North Korea. These would 
include memorializing North Korea's current self-imposed 
moratorium on nuclear and ballistic missile testing and opening 
the Yongbyon nuclear facilities for IAEA inspection and 
monitoring.
    A much more difficult, but nevertheless a vital, initial 
step is to provide a true declaration and accounting of all 
North Korean nuclear sites and fissile material. Pyongyang has 
adamantly resisted giving such an accounting in the past. And 
this is a key reason for the collapse of the two previous 
agreements, the Agreed Framework and the Six Party Talks. These 
first-stage actions, accompanied by an agreement on full 
verification, will test the seriousness of Kim Jong Un's claim 
that he is seeking a different type of relationship with the 
United States and the international community.
    Beyond the immediate steps, the negotiations must produce a 
clear timeline for the ultimate goal, the disablement and 
dismantlement of all nuclear North Korean ICBM facilities. If 
Kim does agree to a swift timeline, I believe the skeptics in 
Washington, Seoul, and Tokyo will become more quiet, although 
they will continue to assert, rightly, that implementation is 
everything.
    My fifth and last point is what Kim Jong Un gets in return. 
Pyongyang has developed nuclear weapons and ballistic missiles 
to ensure regime survival. To reach a clear outcome on 
denuclearization, there should be a corresponding clarity on 
security assurances. Diplomatically, both the DPRK and U.S. 
should show their serious commitment to normalizing relations 
by agreeing to an end-of-war statement and opening up liaison 
offices in Washington and Pyongyang. Declaring that the United 
States does not have hostile intent and that United States will 
begin normalization and peace treaty negotiations is needed as 
security assurances. As an addendum, I would like to add that 
better relations with North Korea, even security guarantees for 
North Korea such as no first strike, cannot come at the expense 
of degrading our alliances in the region, especially the U.S.-
ROK and U.S.-Japan alliances.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Yun follows:]

             Prepared Statement of Ambassador Joseph Y. Yun

    Subcommittee Chairman Gardner, Ranking Member Markey and members of 
the Subcommittee, thank you for the opportunity to testify this morning 
on ``Next Steps on U.S. Policy Toward North Korea.'' I am a Senior 
Advisor at the United States Institute of Peace, although the views 
expressed here are my own. USIP was established by Congress over 30 
years ago as an independent, national institute to prevent and resolve 
violent conflicts abroad, in accordance with U.S. national interests 
and values.
    Achieving a substantive and mutually satisfactory agreement in the 
planned June 12 U.S.-North Korea summit is a particularly complex 
challenge, as the two sides start from positions that have little in 
common. At the most obvious level, they are focused on sharply 
different outcomes. The U.S. under President Donald Trump wants 
immediate or at least swift denuclearization of North Korea, while DPRK 
leader Kim Jong Un is focused on the survival of his regime, beginning 
with recognition of his country as a legitimate state, followed by an 
easing of economic sanctions. That mismatch has remained more or less 
consistent and has stymied any agreement since the first round of 
bilateral denuclearization negotiations in early 1990s.
    However, the stakes have grown far higher since last September when 
the North Koreans successfully tested a thermo-nuclear device with a 
yield approximately fifteen times the blast Hiroshima in 1945, followed 
just 2 months later by the launch of their Hwasong 15 ICBM, capable of 
reaching virtually anywhere in the United States. Simultaneously, 
President Trump's ``maximum pressure'' campaign has begun to squeeze 
the North Korean economy more effectively than past sanctions and his 
warnings of an American military response ``like the world has never 
known'' have rattled both China and South Korea to urge Kim to 
decelerate.
    As a result, the parties' divergence of goals is now matched by an 
equally differing view of their relative negotiating power. President 
Trump has reasons to believe that he is the one holding the cards--that 
Kim has been so punished by the effects of the maximum pressure that he 
is ready to bargain away his nuclear weapons. While South Korean 
President Moon Jae-in is adamant that Kim Jong Un is serious about 
denuclearization, it is clear that, as the leader of a demonstrated 
nuclear weapons possessing state, Kim also believes he enters the talks 
from a position of strength--otherwise, why would the U.S. president 
agree to meet him one-on-one, a goal both Kim's father and grandfather 
were never able to achieve?
   given this gap, what should the u.s. realistically aim for in the 
                                summit?
    North Korea will likely not agree to what National Security Advisor 
John Bolton has in mind: immediately packing away all its nuclear 
arsenal and equipment and shipping them to Oakridge. This much has 
become clear with the most recent high-level engagement between the 
President, Secretary of State Mike Pompeo and North Korean Vice 
Chairman Kim Yong-Chul. Even President Trump recognized that this 
demand was unrealistic, as he opened the door to phased 
denuclearization when he told the press after his meeting with Kim 
Yong-Chul on June 1 that the negotiations with the North Korean would 
be a ``process,'' and that there could be several summit meetings with 
Kim Jong Un and that the first meeting might be something of a 
``getting-to-know-you'' session.
    Still, even in the first summit, the Administration should demand 
immediate concrete steps to support Kim Jong Un's assertion that he is 
indeed looking for a different relationship with the United States, 
South Korea and the international community.
    On the denuclearization side, there are easy, immediate 
deliverables, including memorializing North Korea's current self-
imposed moratoriums on nuclear and ballistic missile testing and 
opening the Yongbyun nuclear facilities for IAEA inspection and 
monitoring. A much more difficult, but nevertheless vital initial step 
is to provide a ``true'' declaration and accounting of all North Korean 
nuclear sites and fissile material. Pyongyang has adamantly resisted 
giving such an accounting in the past, a key reason for the collapse of 
the two previous agreements: the Agreed Framework and the Six Party 
Talks. These first-stage actions, accompanied by an agreement on full 
verification, will test the seriousness of Kim's claim that he is 
seeking a different type of relationship with the United States, as 
well as President Moon's claim that the U.S. should believe it.
    Beyond the immediate steps, the negotiation must produce a clear 
timeline for the ultimate goal: the disablement and dismantlement of 
all nuclear and North Korean ICBM facilities, material, and devices. If 
Kim agrees to a swift timeline--say by 2020--the cadres of skeptics in 
Washington, Seoul and Tokyo will be silenced, although they will 
continue to assert, rightly, that implementation is everything.
    The other side of the ledger is what Kim gets in return. Pyongyang 
has developed nuclear weapons and ballistic missiles to ensure regime 
survival. To reach a clear outcome on denuclearization, there should be 
a corresponding clarity on security guarantees. Diplomatically, both 
the DPRK and the U.S. should show their serious commitment to 
normalizing relations by agreeing to an ``end-of-war'' statement and 
opening of liaison offices in Washington and Pyongyang. Declaring that 
the United States does not have ``hostile intent'' and will begin 
normalization and peace treaty negotiations is equally needed as a 
security guarantee. Still, better relations with North Korea, even 
security guarantees such as no-first-strike, cannot come at the expense 
of degrading our alliances in the region, especially the U.S.-ROK and 
U.S.-Japan alliances.
    Any concrete steps by North Korea on denuclearization should be 
accompanied by economic measures. Early confidence building steps could 
include humanitarian assistance, if not from the U.S. then through 
South Korea and the international community. On sanctions--both U.S. 
and those imposed through the United Nations Security Council 
resolutions--any relief should be based on complete dismantlement of 
the nuclear weapons, material, and program, as the Administration has 
stated repeatedly.
    In the remaining time the U.S. has before the summit, U.S. 
diplomats, led by Secretary Pompeo, should build on the gains made over 
the past 6 months (North Korea's moratorium on nuclear and ballistic 
missile testing, the apparent disablement of the Punggye-ri testing 
facilities, and the freeing of the three American prisoners) to reach 
an agreement on an agenda that addresses both leaders' aspirations and 
promises enough concrete deliverables to convince the American public 
and the international community that the United States and North Korea 
are taking serious steps toward denuclearization of North Korea.
    Thank you for your continued focus and attention to this critical 
national security issue. I look forward to answering your questions.

    Senator Gardner. Thank you, Ambassador Yun.
    And, for those of you wondering, the smell in here was not 
an electrical fire. They were welding upstairs. So, that was 
the smell. It has stopped now, so we are okay.
    [Laughter.]
    Senator Gardner. Dr. Cha.

STATEMENT OF VICTOR CHA, SENIOR ADVISER AND KOREA CHAIR, CENTER 
    FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Cha. Thank you. Chairman Gardner, Ranking Member 
Markey, and distinguished members of the subcommittee, it is a 
distinct honor to appear before this subcommittee to discuss 
the challenges of U.S. policy to North Korea.
    The impending summit meeting between President Trump and 
North Korean leader Kim Jong Un on June 12th in Singapore 
potentially will take us to a historic moment in U.S. policy on 
the Korean Peninsula. If the events leading up to June 12th are 
any indication, only the President himself will determine what 
deal can be made or whether no deal should be made with Kim 
Jong Un. But, a summit is not a strategy, and a summit without 
a strategy is dangerous. The United States needs to have clear 
focus on our objectives in this negotiation, and must stay 
closely aligned with Congress and with our allies in achieving 
these objectives. In this regard, I enumerate some principles 
that might be useful as we think about entering this period of 
summit diplomacy.
    First, we must maintain the goal of complete 
denuclearization of North Korea. I do not think anybody 
disagrees about that. Easing up on this goal might facilitate 
short-term negotiations, but would have damaging effects 
regionally and globally. In this regard, it will be important 
to see a definitive denuclearization statement from the North 
Korean leader which commits to abandoning all nuclear weapons 
and existing nuclear programs or returns to the commitments in 
the 1992 joint declaration between the two Koreas in which they 
agreed neither to harbor, develop, manufacture nuclear weapons, 
nuclear bomb precursors, enrichment facilities, and 
reprocessing capabilities.
    Second, progress in negotiations must not come at the cost 
of U.S. security in the short or long term. It will be 
important to maintain vigilant activities to prevent horizontal 
proliferation, including maximum-pressure sanctions on those 
individuals and entities that continue to facilitate trade or 
business that finances these programs.
    Third, we must pursue policies towards North Korea that 
facilitate broader U.S. strategic objectives in Asia. In 
practical terms, we are talking about measures we take in our 
North Korea policy that should strengthen, not weaken, our 
alliances with South Korea and Japan.
    Fourth, we must seek a missile drawdown that reinforces 
extended deterrence. Any missile deal must account for the full 
range of North Korea's ballistic missiles, both short range and 
long range, in ways that reinforce our extended deterrence 
commitments to our allies and do not delink from Japan and 
South Korea.
    Fifth, we cannot afford to give away too much, too early. 
One of President Trump's rules in business is never to want the 
negotiation more than your counterpart. Given the heightened 
expectations that have been heaped on the summit, it will be 
important for the President not to violate his own cardinal 
rules and put too many concessions on the table--for example, 
the disposition of U.S. troops in South Korea--in return for 
vague commitments to denuclearization. Concessions must be 
calibrated to concrete actions by North Korea related to 
denuclearization or conventional force reductions, not just the 
vague promises.
    Sixth, it will be important for Congress to insist on 
better coordination with relevant parties as the White House 
moves forward in these negotiations. This includes consulting 
with this body, given its role in funding or ratifying any 
agreement, ensuring the South Koreans coordinate their inter-
Korean initiatives with the pace of U.S.-North Korea talks, 
protecting Japan's alliance equities, and encouraging China and 
Russia not to work at cross purposes with the U.S. effort. The 
process could also be derailed by clumsy communication. Rather 
than loud tweets, quiet diplomacy and consultations are 
necessary.
    Finally, seventh, we must require North Korea to address 
human rights abuses. As the recent report by the George W. Bush 
Institute notes, a critical element of any comprehensive 
political settlement with North Korea must include their 
agreement to end their regime's systematic violation of human 
rights.
    Finally, critics may be dissatisfied with the 
unconventional manner of the President's policy towards North 
Korea. Nevertheless, with the summit only days away, we must 
all step back from the politics of the policy and ensure that 
the outcome of these meetings achieves the objective of making 
the U.S. more, and not less, secure. High-stakes summit 
negotiations will necessarily involve tactics and guile, but 
grounding these negotiations in a core set of strategic 
principles is critical to American interests.
    Thank you very much.
    [The prepared statement of Dr. Cha follows:]

                  Prepared Statement of Dr. Victor Cha

    Chairman Gardner, Ranking Member Markey, and distinguished members 
of the subcommittee, it is a distinct honor to appear before this 
committee to discuss the challenges of U.S. policy to North Korea.
                           a historic moment?
    The impending summit meeting between U.S. President Donald Trump 
and North Korea's leader Kim Jong-un on June 12 in Singapore 
potentially will take us to a historic moment in U.S. policy on the 
Korean peninsula. It could be historic for one of two reasons.
    First, if the summit meets the high expectations that the President 
has set for the meeting, it could lead to a breakthrough agreement 
where North Korea, after over one half-century, finally makes the 
strategic decision to come in from the cold, part with their nuclear 
weaponry and ballistic missiles, and join the international community. 
In this scenario, the United States would assuage North Korea's 
insecurity, work with the international community to provide economic 
benefits to the regime, and end the Korean War with a peace agreement 
to replace the 1953 armistice. Japan would also normalize political 
relations with North Korea, achieving the long-sought ``cross-
recognition'' of the great powers in East Asia with the two Koreas. 
This would be a historic, ``fairy tale ending'' to the Korean conflict 
and the platform for a new era of peace and prosperity in Asia.
    Unfortunately, there are no fairy-tale endings with North Korea. 
The alternate historic outcome would be a failed meeting in Singapore 
where either or both leaders walk away convinced of the other's 
disingenuousness. In this scenario, negotiations break down, North 
Korea returns to its pattern of behavior in 2017 when it conducted 20 
ballistic missile tests and one hydrogen bomb test, the United States 
ramps up military exercising and pre-positioning of assets, the ``fire 
and fury'' rhetoric heats up again, and the potential for armed 
conflict, even nuclear conflict, becomes very real.\1\
    The likely reality is that the summit will produce something in 
between these two extremes. The U.S. and North Korea teams have been 
preparing in Singapore (led by Joe Hagin [U.S] and Kim Chang-son 
[DPRK]), Panmunjeom (led by Sung Kim [U.S.] and Choe Son-hui [DPRK]), 
and in Washington (Secretary of State Mike Pompeo and Vice Chairman Kim 
Yong-chol), constituting the conventional preparations and 
choreographing of a summit that were initially absent when President 
Trump on March 8 impulsively agreed to meet the North Korean leader on 
the occasion of an Oval Office visit by the South Korean national 
security advisor Chung Eui-yong. After President Trump's 2-hour meeting 
with North Korea's second-in-command Kim Yong-chol on June 1, he stated 
that ``it'll be a process. It's not--I never said it goes in one 
meeting . . . But relationships are building, and that's a very 
positive thing'' in order to achieve denuclearization, which he 
believes Kim Jong-un would ``like to see it happen.'' \2\
    The irony, then, is that what was initially presented as a cliff-
hanger dramatic summit, upon which war or peace on the Korean peninsula 
hung is now looking more like conventional diplomacy for the 
unconventional Trump White House. There is nothing wrong with this. To 
have policy professionals working long hours to prepare logistics and 
deliverables in advance of the two leaders' meeting is ideally the way 
summit diplomacy should be conducted. And given the nature of North 
Korea, trying to close the gap on disparate definitions of 
denuclearization requires an early meeting with the regime since there 
is only one person in the North Korean system who can make such a 
strategic decision. If the President sees himself as successful in 
Singapore, he will have been able to elicit a definitive commitment 
from the North Korean leader to abandon his nuclear weapons, a 
commitment to end his ballistic missile threats to the U.S. and its 
allies, and mandate a negotiation process going forward to achieve 
lasting peace on the Korean peninsula. While this outcome would not be 
achieving the so-called ``CVID'' (complete, verifiable, and 
irreversible dismantlement) along the lines of the Libya model, few 
would disagree that this would be a useful, albeit outcome. As Henry 
Kissinger once said, ``foreign policy is the art of the possible and 
the science of the relative''--this summit outcome would certainly be 
better than the alternative.\3\
                         what north korea wants
    Nevertheless, as we hurtle toward June 12, it is important to keep 
in mind that North Korea and other powers are not in this game to 
achieve American interests, but to seek maximum concessions from the 
Trump administration, while giving up as little as possible of their 
own equities. North Korea's true intentions are not known. However, its 
goal may be to reach a peace agreement with the United States and all 
of the economic benefits that it would bring from China and South 
Korea, among others, but that ultimately Pyongyang will part with some, 
not all of their weapons capacity. In the end, North Korea may want to 
be a full-fledged member of the international community. It may want 
peace on the peninsula and a political relationship with the United 
States that does not necessarily have to be cordial but accords them 
respect as a sovereign state. But it also may want to be accepted as a 
nuclear weapons state. To the extent that Pyongyang addresses 
denuclearization concerns, it may seek to engage in arms control 
negotiations with the United States to reduce mutual threat, but it 
will not give up all of its weapons; instead it will try to socialize 
the world into believing that these weapons are purely defensive in 
nature and unthreatening, that they are safely controlled, and that 
they are the prerogative of a responsible nuclear weapons state.
                              what we want
    If the events leading up to June 12 are any indication, only the 
President himself will determine what deal can be made--however 
imperfect--or whether no deal should be made with Kim Jong-un. But a 
summit is not a strategy, and a summit without a strategy is dangerous. 
We cannot put ourselves in a position of trading away important 
alliance equities and weakening sanctions and pressure in return for 
vague promises of denuclearization in the future. The United States 
needs to have clear focus on our objectives in this negotiation and 
must stay closely aligned with Congress and with our allies on 
achieving these objectives. In this regard, I enumerate some strategic 
principles that account for U.S. equities in Asia as we enter this 
period of summit diplomacy.
                      national security principles
Maintain the goal of complete denuclearization of North Korea
    The United States must maintain that the objective of our 
negotiations is the complete end to North Korea's WMD and missile 
threat. Easing up on this goal might facilitate short-term 
negotiations, but would have damaging second and third order effects, 
regionally and globally. Any negotiations must prevent North Korea's 
use of these weapons to intimidate the region and, more broadly, to 
upholding the global nonproliferation regime. The modalities of this 
may be subject to negotiation, but not the goal.
    In this regard, it will be important to see:

    1) A definitive denuclearization statement from the North Korean 
leader, which commits to ``abandoning all nuclear weapons and existing 
nuclear programs'' (Six Party Talks 2005 joint statement commitment by 
North Korea) or returning to commitments in the 1992 Joint Declaration 
of South and North Korea on the Denuclearization of the Korean 
Peninsula to neither harbor, develop, nor manufacture nuclear weapons, 
nuclear bomb precursors, enrichment facilities, and reprocessing 
capabilities; \4\

    2) A complete and fully verifiable declaration of North Korea's 
nuclear, chemical, and biological weapons, and ballistic missile 
programs.
Any negotiations and agreement with North Korea should make America 
        more, not less, secure
    Progress in negotiations must not come at the cost of U.S. security 
in the short or long term. So long as North Korea's WMD and missile 
programs remain in existence, it will be important to maintain vigilant 
activities to prevent horizontal proliferation, including ``maximum 
pressure'' sanctions on those individuals and entities that continue to 
facilitate trade or business that finances these programs. The United 
States should also avoid negotiations that impact the military 
readiness of our forces to address the North Korean threat and broader 
regional challenges.
Pursue policies toward North Korea that facilitate broader U.S. 
        strategic objectives in Asia
    U.S. North Korea policy must be embedded within a regional strategy 
that fortifies our leadership position and capacity to deal with 
challenges from a rising China. In practical terms, this means that 
measures we take in our North Korea policy should strengthen, not 
weaken, our alliances with South Korea and Japan. When negotiations 
with the North reach critical moments, we must coordinate policies with 
our allies to enhance our deterrence and defense posture in the region. 
Any consideration of military options must also align with this 
principle.
Seek a missile drawdown that reinforces extended deterrence
    The United States has not tried to negotiate a missile drawdown by 
North Korea since the end of the Clinton administration. The failure to 
curb this program has resulted in the Hwasong-14 and Hwasong-15 ICBMs 
that can directly threaten the U.S. homeland. However, any missile deal 
must account for the full range of North Korea's ballistic missiles--
both short-range and long-range--in a way that reinforces our extended 
deterrence commitments to allies and does not delink from Japan and 
South Korea.
                          diplomacy principles
Don't give away too much, too early
    One of Donald Trump's rules in business is never to want the 
negotiation more than your counterpart. Given the heightened 
expectations that have been heaped on the summit (and talk of the Nobel 
Peace Prize), it will be important for the President not to violate his 
own cardinal rule and put too many concessions on the table--e.g., the 
disposition of U.S. troops in South Korea--in return for vague 
commitments to denuclearization. Concessions must be calibrated to 
concrete actions by North Korea related to denuclearization or 
conventional force reductions, not just to promises.
Coordinate with Congress, allies, and partners
    Outcomes on the Korean peninsula impact the core interests of all 
the powers in East Asia. Donald Trump's ``shock diplomacy'' compelled 
regional players to find their feet and position themselves relative to 
the U.S. It will be important for Congress to insist on better 
coordination with relevant parties as the White House moves forward in 
these negotiations.
    This includes:

    1) Consulting with Congress given its role in funding or ratifying 
any agreement;

    2) Ensuring the South Koreans coordinate their inter-Korean 
initiatives with the pace of U.S.-North Korea talks;

    3) Protecting Japan's alliance equities;

    4) Encouraging China and Russia not to work at cross-purposes with 
the U.S. effort. The process could also be derailed by clumsy 
communication: rather than loud tweets, quiet diplomacy and 
consultations are necessary.
Support a peace dialogue on the peninsula, with a treaty as a goal at 
        the appropriate time in the future
    The United States should view an end to the state of hostilities on 
the peninsula as an objective fully in line with American interests. 
Toward this goal, a discussion among the relevant parties about how to 
implement confidence-building measures, crisis hotlines, West Sea 
crisis prevention, etc., is appropriate as denuclearization progresses.
Require North Korea to address human rights abuses
    Both parties appear to agree that this summit has the potential to 
start a broader political reconciliation process between the U.S. and 
North Korea. As a recent report by the George W. Bush Institute notes, 
a critical element of any comprehensive political settlement with North 
Korea must include their agreement to end the regime's systematic 
violations of human rights.\5\ Pyongyang's addressing of such concerns 
would lend credibility to the view that the regime has made a strategic 
decision to seek a path of integration with the international 
community.
Consider interim steps before achieving diplomatic normalization
    Realistically speaking, a one-shot denuclearization agreement is 
not likely to end a program that first started greenfield landscaping 
in 1962.\6\ This will take time and there will be many potholes and 
roadblocks along the way. Having an established channel of official 
diplomatic dialogue, such as liaison offices, might help the 
denuclearization process, create familiarity among the parties, and 
enable productive dialogue opportunities.
                               __________
    Critics may be dissatisfied with the unconventional manner of the 
President's policy toward North Korea. Nevertheless, with the summit 
meeting only days away, we must all step back from the politics of the 
policy, and ensure that the outcome of these meetings achieves the 
objective of making the U.S. more and not less secure. High stakes 
summit negotiations will necessarily involve tactics and guile, but 
grounding these negotiations in a core set of strategic principles is 
critical to American interests.

----------------
Notes

    \1\ North Korean Provocations and U.S.-ROK Military Exercises,'' 
CSIS Beyond Parallel, April 3, 2017, https://beyondparallel.csis.org/
north-korean-provocations-us-rok-military-exercises/
    \2\ Donald J. Trump, ``Remarks by President Trump after Meeting 
with Vice Chairman Kim Yong Chol of the Democratic People's Republic of 
Korea,'' The White House, June 1, 2018, https://www.whitehouse.gov/
briefings-statements/remarks-president-trump-meeting-vice-chairman-kim-
yong-chol-democratic-peoples-republic-korea/
    \3\ Henry A. Kissinger, Does America Need a Foreign Policy? Toward 
a Diplomacy for the 21st Century, (New York: Simon & Schuster, 2001), 
page 258.
    \4\ ``Joint Statement of the Fourth Round of the Six-Party Talks,'' 
Beijing, September 19, 2005, U.S. Department of State, https://
www.state.gov/p/eap/regional/c15455.htm; ``Joint Declaration of South 
and North Korea on the Denuclearization of the Korean Peninsula,'' 
February 19, 1992, http://www.nti.org/media/pdfs/aptkoreanuc.pdf
    \5\ Victor Cha and Robert L. Gallucci, ``Toward a New Policy and 
Strategy for North Korea,'' George W. Bush Institute, November 2016, 
https://gwbcenter.imgix.net/Resources/gwbi-toward-a-new-policy-for-
north-korea.pdf
    \6\ Joseph Bermudez and Beyond Parallel, ``Yongbyon Declassified: 
At Ground Zero,'' CSIS Beyond Parallel, May 14, 2018, https://
beyondparallel.csis.org/yongbyon-declassified-ground-zero/

    Senator Gardner. Thank you, Dr. Cha.
    Again, thank you, Ambassador Yun.
    And we will begin with questions. You have both stated that 
denuclearization must be the goal, objective of this summit. I 
believe the complete, verifiable, irreversible denuclearization 
must be the goal, the objective of this summit. It is the law 
of the United States that complete, verifiable, irreversible 
denuclearization is our policy toward North Korea.
    Dr. Cha, quickly--Ambassador Yun, quickly--again, if you 
could just, in a sentence or two, define for the committee what 
``denuclearization'' is. It is not ``You know it when you see 
it.'' What is ``denuclearization''?
    Dr. Cha.
    Dr. Cha. So, it starts, as Ambassador Yun said, with a 
complete and fully verifiable declaration of all weapons or 
precursors and facilities, including the over 300 buildings at 
Yongbyon, but everywhere else around the country; and then, 
following that, the verifiable monitoring of a long-term freeze 
on all the activities that take place; and then the eventual 
disablement and dismantlement and removal of all facilities and 
weapons and their precursors. I do not think there is another 
definition out there that makes more sense than that, and I 
think it is one that is internationally accepted.
    Senator Gardner. Thank you.
    Ambassador Yun.
    Ambassador Yun. I completely agree with that. I do not 
think I can improve on that.
    Thank you.
    Senator Gardner. Thank you. Thank you, Ambassador Yun.
    And both of you have stated that our pressure must continue 
on North Korea. Dr. Cha, we should continue our maximum 
pressure and fully enforcing our sanctions on North Korea. Is 
that correct?
    Dr. Cha. Yes, I agree with that statement, absolutely.
    Senator Gardner. Ambassador Yun.
    Ambassador Yun. Practically, it is not possible to continue 
maximum pressure. I mean, when you are talking with your 
adversary, are you going to continue maximum pressure? I mean, 
that is a rhetorical question. But, you cannot do it. I do not 
think you can have serious engagement as well as maximum 
pressure.
    Senator Gardner. Let me follow up with that. If there is 
not maximum pressure, though, because there are ongoing 
negotiations, that must mean there is some objective that has 
been agreed to, some principle upon which they have said, in 
order for us to reach this agreement or a lessening of 
pressure, that is what they would do. But, it must be concrete. 
Is that correct?
    Ambassador Yun. Well, for example, right now, as we speak 
right now, the North Koreans have stopped testing. They have 
stopped testing nuclear devices, they have stopped testing 
missiles, and they have, at least apparently, done something to 
the Punggye testing facility. Well, I think, when your 
adversary takes a step, it is also up to you to take a step, 
too. So, it does not have to be written. You know, it can be 
understanding, it can be back-channel communication. But, I 
think we need to acknowledge when your adversary has taken a 
step.
    Senator Gardner. Thank you.
    Let me ask you this. Do you think the sanctions have 
already lessened, in some degree?
    Dr. Cha.
    Dr. Cha. Yeah, I am concerned. I mean, the reports are 
clearly that the Chinese have lessened the pressure. There are 
reports that North Korean ships are showing up in Chinese 
harbors now. We are trying to collect satellite imagery right 
now, commercial imagery, of the border region to measure what 
is the activity on the customs area in both--on the North 
Korean side and the Chinese side. I think the South Koreans are 
pre-positioning to get ready to provide humanitarian assistance 
to the North.
    According to what Joe said, I mean, I think there are 
things that are already starting to be put in motion that are 
being presented as rewards to North Korea for the steps they 
have already taken. I think our sanctions are--I mean, as you 
said, they are U.S. law, and they are explicitly linked to 
nuclear proliferation and nuclear activity. So, I do not think 
they are political instruments. I think they are things that 
have been put there because of North Korean proliferation 
activity, and therefore, it requires concrete action by the 
North for there to be any change in the sanctions regime that 
currently exists.
    Senator Gardner. Do you believe that Kim Jong Un is 
committed to denuclearization, as you have described it?
    Dr. Cha. No. In my 30 years of studying this issue and the 
limited time I have had in government working on this issue, I 
am not convinced yet that they are--he is fully ready to give 
up his weapons. I think, as you said, or as Joe said in his 
testimony, they prefer to frontload the rewards and push off 
denuclearization for as long as they possibly can. And, even 
then, I think, when they talk about denuclearization of the 
Korean Peninsula, they do not use that phrase in the same way 
that an untrained ear might hear it. I mean, they use it to 
mean: Sometime in the future they believe that the Korean 
Peninsula should be free of weapons, when there is no longer 
any threat in the world to North Korea. And, you know, the type 
of regime that this is, they will always feel insecure, 
regardless of whether there is the United States on their 
border or the United States not on their border.
    Senator Gardner. Ambassador Yun, as we agreed to the, sort 
of, definition--as you agreed with Dr. Cha on the definition of 
``complete, verifiable, irreversible denuclearization,'' do you 
believe Kim Jong Un is committed to that level of CVID?
    Ambassador Yun. I would say we do not know. Kim Jong Un is 
34 years old. I think he is looking to live another 40 years or 
more. And he has experience living overseas. I mean, I agree 
completely with Victor that all signs are--in history, they 
have not shown any signs that they want to denuclearize. But, 
however, it is a hypothesis worth testing, that we push to the 
limit, whether--so that we can determine how serious it is. I 
do not think he, himself, you know, or the North Korean elites, 
know how serious he is, but we need to point him to the 
direction so that he becomes serious. I completely agree with 
Senator Markey. War is not an option. War is not an option. And 
so, we should be trying to point to him so that we do not go 
towards that direction.
    Thank you, sir.
    Senator Gardner. Yeah, thanks, Ambassador.
    Before I turn to Senator Markey, I think it is very 
important that a couple of points remain in focus on this.
    Number one, that full commitment to denuclearization. In 
Section 402 of the North Korea Sanctions Policy Enhancement 
Act, we make it very clear the conditions with which the 
President can certify we have achieved that goal in order to 
lift sanctions under U.S. law and the NKSPEA legislation.
    Number two, the framework with which we pursue these 
actions with Korea and Japan, we must not sacrifice the 
alliance between Korea and the United States or imperil that, 
endanger that whatsoever, but also making sure that the 
regional interests of Japan are taken into account as it 
relates to the strategic postures that North Korea could 
possess.
    Number three, our strategic deployment of U.S. troops on 
the Korean Peninsula, critically important, not just for the 
issue of peace on the Peninsula, but this is a very important 
issue that should not be contingent or connected or related to 
North Korea-South Korea-U.S. talks on nuclearization. They are 
completely separate, and should not, under any circumstances, 
be used as a negotiating chip or tool in these discussions.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Let me move to the key issue of timing, in terms of what, 
in your opinion, the sequence should be of concessions that are 
made by North Korea of their verifiability and then the 
concessions which are given by the United States. Could you 
each lay out, if you could, how you believe that timing should 
unfold?
    Dr. Cha. So, I think, as Ambassador Yun said in his 
statement, the baseline condition as we enter this is that 
there has to be a suspension of everything that the North 
Koreans are doing. I do not see that as a phase. That is just 
the baseline, and should be there all the time.
    To me, the most important thing that would give one a sense 
that there is a true--at least the beginning of what looks like 
a true strategic decision to move in the direction that we want 
them to is this declaration. I mean, it is the place that we 
have been stopped before with North Korea in the last 
agreement, during the Six Party Talks. We got the point of the 
declaration, where North Korea would not provide a true 
declaration.
    And then, following that complete declaration, that all has 
to be verified. So, the next step would be international 
inspectors going in to verify the quantity, the location of all 
of these things, and prepare the disablement process.
    Those are, I think, the key steps--sequential steps for the 
denuclearization part. And the provision of assistance, whether 
it is through the humanitarian carve-out under the current U.N. 
sanctions regime, or the actual relaxation of some of the 10 
U.N. Security Council resolutions, or our own sanctions of 
North Korea, would have to be calibrated to concrete steps, in 
terms of, I think, the process of verifying quantity and 
location, and then the disablement process. To me, that seems 
like the sort of key sequential steps.
    Senator Markey. And when are we providing, along that 
sequence, the benefits of their cooperation----
    Dr. Cha. Senator, I think we would have to start seeing 
some actions on the part of the United States when we are 
actually at the verification----
    Senator Markey. At the verification level.
    Do you agree with that, Ambassador Yun?
    Ambassador Yun. Yes. I think, again, the crucial step is 
the first step, declaration. Without knowing what they have, 
how are you going to negotiate with them? And this is where we 
failed in the past. So, coming out of Singapore, for me, the 
litmus test of whether we have gotten anywhere is to know 
whether they have a declaration, or not.
    On what we do in return, that is obviously a tougher topic. 
You know, what do you give in return? I think everyone agrees 
on what we get from them. And then, you know, being in the 
administration, it was always very uncomfortable to discuss 
what we would give in return, because you do not want to start 
saying what you are going to give before you start negotiation. 
Obviously, they are looking for security assurances. And we 
need to address that need. And I think you can match the steps. 
And this is why I think the President has moved from his 
previous position of ``all in one'' to phase, you know, step-
by-step approach. And you can start beginning with end-of-war 
declaration.
    What does it mean, practically, to have an end-of-war 
declaration? To me, it means that you are, essentially, taking 
a military option off the table. You know? So, I think that is 
one assurance that you can give them. And you can start 
discussing a peace treaty negotiation to finally end the cease-
fire that ended the Korean War.
    And then, as you mentioned, you know, as the Chairman 
mentioned, how do you match disablement, dismantlement with 
economic sanctions? And that is a crucial step that they will 
be looking for. You know, it is this tough-to-know timeline. I 
think Sig Hecker, who is a real expert, visited North Korea 
many times--you know, Los Alamo Lab--said, ``Even with 
voluntary denuclearization, it could take 10 years to do all 
that.'' You know, so it is going to take a while.
    Senator Markey. Ten years. So, in addition to nuclear, 
there are also missile issues, chemical issues, human rights 
issues, cyberhacking issues. So, the question that I am going 
to have for both of you is, should we handle all of those 
issues at once, or should we do them sequentially, focusing 
first upon the nuclear issue? What would your recommendation 
be, in terms of how we look at that negotiation challenge?
    Ambassador Yun. Well, I really think it would be a mistake 
to overload the agenda. As you mentioned, there are human 
rights. What are you going to do about Japanese abductees? What 
are you going to do about refugees? What are you going to do 
about biochem weapons? What are you going to do about 
conventional weapons? I mean, that really overloads the agenda. 
And, initially, security guarantee also means you are not going 
to interfere in domestic happenings, domestic politics. So, you 
have to give that assurance. So, I can understand, it will be 
criticized heavily by many of you, why we should concentrate on 
denuclearization, above all else.
    Thank you.
    Senator Markey. Dr. Cha.
    Dr. Cha. I do think that these are clearly the most 
important threats. I mean, our objective always is, how is this 
negotiation going to make us more secure, not less secure? And, 
in that sense, long-range ballistic missiles, the nuclear 
warheads are the key. Having said that, you know, for 30 years, 
we have done the negotiation this way, and it has not gotten us 
very far. And so, I feel like, while those are the key pieces, 
they need to be embedded in a broader political discussion that 
encompasses a wide variety of issues. That can also serve to 
help us to get a better sense of whether the North Koreans are 
serious, or not. So, actual steps on human rights, treating 
their people better would actually be a very important 
indicator of whether this regime is going to change the way it 
does things, both at home and abroad.
    Senator Markey. Agree.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you.
    Senator Risch.
    Senator Risch. Let me say, first of all, Senator Markey, I 
really agreed with a lot of the things that you said in your 
opening statement, but there are few things that I did disagree 
with. One is that there is no military solution here. And you 
said that he believed he was negotiating from a position of 
strength. If he truly believes that there is no military 
solution here, then he is, indeed, negotiating from a position 
of strength. But, the choice for a military solution is not 
ours. It is his. He was told by the international community, by 
the President, what the red line was and what he could not do. 
And if he crossed that red line, there was going to be a 
military solution, not of our choosing. So, the cards are in 
his hands in that regard.
    So, I want to talk a little bit--there is a lot of 
overthinking going on, on this. There are two things that are 
needed to get where we want to be. I want to touch on what you 
said, Mr. Yun, about overloading. The question that Senator 
Markey had was an excellent question, about what do we resolve 
here? You have, at one end of the spectrum, the human rights 
problems that they have internally. You have, at the other end 
of the spectrum, the nuclear issue. Look, we are all about 
human rights. We always have been, we always will be. That is 
going to be us. But, if you try to overload this and try to 
resolve all these things at once, I think you are just setting 
the thing up for failure.
    I think two things are needed to resolve the current issue. 
And that is, you need the two leaders, when they sit down, to 
reach an agreement on an objective. That is, they both have an 
understanding of what the objective is. And when--after that 
happens, they both need to pledge that they will work in good 
faith to reach that objective.
    Both of those were missing with the Iran deal. We did not 
have the same objective. Our objective was that they never have 
a nuclear weapon. Their objective was, ``Well, yes, but not 
right now.'' And they had their fingers crossed behind their 
back as we were going down the pike. And the second thing that 
was missing with the Iranians was good faith. They were not 
working in good faith to cede that they never had a nuclear 
weapon. Indeed, they were working just the opposite, to have 
things put in place so that they could eventually get to a 
nuclear weapon. So, those two things were missing.
    Get to those two things, an objective and then a good-faith 
pledge on both sides. If you do that, this thing can be solved. 
It really can be.
    The accounting, obviously, is important. And I think, Mr. 
Cha, you had mentioned that they have resisted this in the 
past. Well, you are absolutely right. They have strongly 
resisted this in the past. But, remember, they have also 
resisted in the past the idea of a denuclearized Korean 
Peninsula. So--now, obviously, the definitions need to be 
honed, but, in the past, if you would have said to them, 
``Would you agree to a denuclearized Korean Peninsula?''--they 
did not agree to that, under any terms. So, something has 
changed, here. And there is no question that what has changed 
is the tone of how things were from January and February to 
where they are today. There has been a change in the tone 
between--actually, between both countries.
    I think our position has to be that we are going into this 
clear-eyed. They know that we know that there is suspicion and 
skepticism on our part because of the history of this thing. 
The history has been just awful. We have been taken to the 
cleaners, not just once on this, where we started giving stuff 
and then, at the end of the day, they pulled the carpet out 
from under us. That is not going to happen again. This 
President has said clearly that this is not going to happen 
again. And we have a different situation, with President Trump, 
than we have had in the past. I think Kim Jong Un recognizes 
that he is dealing with a person who has a very strong 
personality and is not going to tolerate the kinds of things 
that have gone on in the past. I think he recognizes that 
clearly. He knows that this President is dedicated--deeply, 
deeply dedicated to the security of the United States and our 
allies in the region.
    So, I think there have been things that have changed. Am I 
willing to sit here and say, ``Oh, it is different this time''? 
No, I am not willing to sit here and say that. But, there are 
things that are happening, and there are positive things that 
are happening, as both of you have suggested. And we need to 
recognize that. This is so important--this is so important, to 
us and to the world, that, if, indeed, there is a change 
happening, we need to let these two people get together in a 
room, two people who have strong personalities, try to hammer 
this thing out and see if they can come to some kind of 
agreement. It is so important that they recognize that, even 
though we have had a bad history and they have done things that 
were very bad negotiations in the past, if, indeed--if, indeed, 
they are going to go down the road that they are suggesting 
that they want to go down the road, they need to know that we 
are a willing partner and will be a cooperative partner to get 
to the point that they have suggested that they want to get to. 
I think if we do that, I think that we can be successful.
    And I appreciate your work on this, everyone's work on 
this. I hope that the--our national media--I hope that other 
national media around the world--international media around the 
world, will give these two leaders a chance and not expect them 
to come out of there with an all-inclusive solution that is 
immediate. This is going to take some time. But, if they can 
reach an objective, and if they can reach a situation where 
they both agree that they will work in good faith to meet that 
objective, this can be done.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Risch.
    Senator Risch. This is a very timely hearing. Thank you for 
the hearing.
    Senator Gardner. Yeah. Thank you, Senator Risch.
    Senator Cardin.
    Senator Cardin. Well, Mr. Chairman, first, thanks for 
holding this hearing. It is very important. We are one week out 
from the summit, and this is the best presentation I have heard 
in regards to developing a strategy on what we want to achieve 
through negotiations.
    Mr. Chairman, I am wondering how much discussion has taken 
place in the White House in order to prepare for this summit 
that is just one week away. I say that, recognizing there has 
been virtually no communication with Congress as to the 
preparations for this summit. I know individual Republicans 
might have had conversations. I am not aware of any Democrats, 
and I am not aware of any conversations with this committee, 
which holds the key role here. And, as Dr. Cha said, Congress 
needs to be involved in this, for two reasons. One, we need 
unity in America. And, secondly, we might have to act, because 
our sanction regime is mandatory, and, ultimately, there is 
going to be a need for congressional action in order, if there 
are successful agreements, for Congress to help implement those 
agreements.
    So, let me make it clear. I agree with Senator Markey. I am 
very much in favor of a diplomatic solution, here. I am very 
pleased to see that we are moving forward with diplomacy. I 
think that is the best way to move forward. So, I am pleased 
about that. But, I am also realistic as to what we need to 
achieve. And I thought both of you laid out that you need to 
have a declaration. There needs to be a commitment by North 
Korea to an objective. Then you need to know what the current 
status is. You need to get a commitment to make sure there is a 
freeze, and that requires inspections, and to make sure that 
the declaration is accurate. And then you need a strategy to 
dismantle. And, obviously, that will take time. And yes, there 
will be tradeoffs as you go through the process. That is what 
you need to achieve.
    So, I sort of want to focus on Kim Jong Un for one moment 
and ask one critical question. Do you believe, today, he is 
committed to the end of the nuclear program in North Korea?
    Ambassador Yun. This is a tough one. I will let him begin.
    [Laughter.]
    Dr. Cha. So, I am quite skeptical that he is. And let me 
just give one reason why. We have done some work where we have 
looked up old archive satellite imagery of the North Korean 
nuclear site at Yongbyon. And it turns out that they started 
landscaping that site in 1962, 2 years before China detonated 
their first nuclear device. December of last year, they said 
they had completed their program. So, that is over 60 years 
they have been working on this thing. And the notion that they 
are ready to show up in Singapore and all of a sudden say, 
``Here, it is all yours now. You know, we are ready to 
denuclearize,'' I am just very skeptical about. Now, I do not 
disagree with Joe, in the sense that this is why you have a 
summit meeting, this is what negotiation is for, but we walked 
in with the very same premise in 1994 and in 2005. Obviously, 
there is a big difference, because the leaders are meeting, and 
that will be important to know, ultimately, whether they are 
interested in this. But, right now, I am still skeptical.
    Ambassador Yun. Thank you. Again, we do not know, and I 
would say this is a hypothesis worth testing. I think what is 
unusual about this summit meeting is that these are truly 
leaders-led. You know, we talk about the term ``leaders-led,'' 
and you see, both on President Trump's side in Washington, Kim 
Jong Un's side in Pyongyang, resistance among staff. And 
leaders are much more eager to get there than staff or, you 
know, those under him. And so, I mean, I mean, I do agree with 
Senator Risch. We--you know, let them have a goal, let--I mean, 
we have--we can say he has failed many times in the past, but 
we have never had the leaders meeting on this issue.
    Senator Cardin. And that is why I support this.
    Ambassador Yun. Yeah.
    Senator Cardin. I agree with what you are saying. And I 
think both of your answers are accurate. Today, we cannot 
believe that Kim Jong Un actually will turn over all of his 
nuclear weapons. We can, hopefully, through the leaders, start 
a path that can lead to that. And that is why the negotiations 
are particularly sensitive to make sure that we do not give 
away too much, too early, and that we achieve a plateau that 
can lead to the next plateau. And that is where I think we are 
having challenges here as to whether the leaders, in fact, will 
leave us in that position. You laid out, I think, pretty 
specifically, what we need to do. Kim Jong Un, what is his 
objective in the summit? What do you think he is going to try 
to achieve in the summit?
    Ambassador Yun. I believe he wants the summit to see the 
seriousness on the U.S. side. And I do believe the phrase, you 
know, ``getting to know you'' that President Trump used is 
probably exact wording from what the North Koreans want to do. 
And someone added the ``plus,'' because it sounded too little, 
``getting to know you.'' So, I think this is what Kim Jong Un 
wants. He is the one who has gotten so far. I mean, you know--I 
mean, let us remember, he has come out onto a major foreign 
policy stage. And so, he--I think he wants to start slow.
    Senator Cardin. How far do you think he will go on June 
12th?
    Ambassador Yun. I believe he will go to have what we call 
declaration that he is--he will eventually denuclearize 
completely, fully, whatever words you want, provided they have 
no longer need nuclear weapons for deterrence. I think--and 
that they have been willing to go--is it new? No.
    Senator Cardin. And what does he want to get from the 
United States?
    Ambassador Yun. He wants security guarantees for regime 
survival.
    Dr. Cha. I think he is going to want to give as little as 
he can and get as much as he can in Singapore. I do think that 
he will stick to the ``denuclearization of the Korean 
Peninsula'' mantra, that all of his high-level emissaries have 
used thus far. And I think, you know, every foreign policy has 
a domestic audience. I mean, he has a domestic audience here. 
They have announced that this engagement with the United States 
is now part of their national narrative, but I do not think it 
is one based on weakness or a desire to get economic 
assistance. It is based on strength. They are a nuclear-weapons 
state now. That is why the United States wants to talk to them. 
That is why Donald Trump is ready to meet with them. So, they 
have a domestic narrative based on strength. And to think that 
they are going to give up that corpus of strength at this 
meeting would completely contradict the domestic narrative.
    Senator Cardin. Thank you.
    Senator Gardner. Thank you, Senator Cardin.
    Votes have started, so Senator Markey is going to vote, 
come back, and then I will go vote.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks, to our witnesses, for your help and for your 
service.
    And, in particular, Ambassador Yun, I want to just say to 
you, thank you for your work on behalf of Otto Warmbier and his 
family. What a tragic situation. But, he was a University of 
Virginia student, and close friends of mine. The Halal Minister 
at UVA was very close to Otto and his family. And the work that 
you did was compassionate. A very, very difficult situation. It 
was tragic. And, obviously, we learned some things from it.
    Here is what I want to get into with you guys. I have some 
disagreements with Senator Risch about the Iran deal. And we 
have hashed them out earlier here in this room, and we do not 
need to. But, there was one part of the Iran deal we completely 
agreed with. In fact, every Senator did. And it was that 
President Obama should not be able to do it without Congress. 
So, we wrote up an Iran Nuclear Review Act. Senators Corker and 
Cardin were the sponsors of that, with other cosponsors. And we 
did not set preconditions for the negotiations, but we, 
basically, required President Obama to bring it back to 
Congress. And the basic structure of it was, if you do a deal 
that touches upon congressional prerogatives, like the 
congressional sanctions regime, you have to bring it back to 
Congress. And we will defer to you, as an Article 2 executive 
with diplomatic prerogatives, but you have to bring it to 
Congress, and Congress has a period of time under which to 
review it and disapprove of it. But, if Congress does not 
disapprove of it, it can go forward. That received a 98-to-1 
vote in the Senate. And the only Senator who voted no was 
Senator Cotton, who actually also believed President Obama 
could not do it without Congress. He wanted a different set of 
standards about what congressional review should be.
    So, my opening question to you is, given that that was the 
will of this body with respect to President Obama and an 
Iranian nuclear deal, should we not apply the same principle to 
this deal and suggest that any deal that the President does 
that touches upon any congressional prerogative, like a 
congressional sanctions regime or might commit Congress to a 
treaty or something down the road--should we not have a uniform 
standard that the deal should be subject to some congressional 
review before it can be considered fait accompli and done?
    Dr. Cha. So, I think, Senator, that that is--I would agree 
with you. I think that is very important, especially given that 
everything we have seen thus far, in terms of getting to 
Singapore, has been very closed, not subject to any--not even 
interagency review, let alone congressional review. So, I think 
that that bar has to be put out there, because you want to be 
able to publicly defend the policy or the deal that you are 
going to make.
    Senator Kaine. Ambassador Yun.
    Ambassador Yun. I would completely agree with you, Senator 
Kaine. I think one weakness of some of these agreements that we 
have entered is that it does not have full buy-in from 
Congress. And, obviously, any deal on North Korea will have to 
lead to a peace treaty. And that is something that should be, 
you know, of course, the domain of Congress, is a treaty.
    Senator Kaine. So, setting aside for a minute what the 
requirements should be for a congressional review, let me dig 
into it further. If congressional review means that the 
administration has to sell the deal to Congress, and, by doing 
that, it is also selling it to the American public--and that is 
a lot better than kind of a secretive deal that does not get 
sold--congressional review means that the President's--and his 
negotiating team can look the North Koreans in the eye and say, 
``You know, it is not enough for me to agree to this, I have to 
do something that I believe I can get the people's elected body 
to agree with.'' And that can actually be helpful to the 
administration in negotiating a deal.
    So, I would say, in the interest of transparency, in the 
interest of the appropriate relationship between Article 1 and 
Article 2 branches, to protect the congressional prerogative, 
vis-a-vis congressionally imposed sanctions, I am not that 
interested in setting preconditions. I am like you, Ambassador 
Yun, whatever level of hope or expectation I have, I am glad 
they are having the discussions. But, I do not want there to be 
a deal done unilaterally by an Article 2 executive without a 
review process that is at least as significant as the review 
process that we unanimously agreed should be imposed with 
respect to the Iranian deal. And again, would you generally 
share that sentiment?
    Dr. Cha. I would generally share that sentiment, and I 
would pick up particularly on the point that you made about 
that--I mean, obviously, for transparency, ratification 
purposes, but also for actual bargaining leverage. I mean, if 
we can go and say to the North Koreans, ``We cannot do this, 
because we know that the Congress, the American people, will 
not accept that,'' that gives you additional leverage in 
negotiation.
    Ambassador Yun. I agree with that, Senator. And one thing I 
would add is that, to me, there has been lack of congressional 
involvement in almost anything we do with North Korea. And I 
felt that when I was in the administration. I feel it now. 
There is--you know, practically nobody goes to----
    Senator Kaine. Yeah.
    Ambassador Yun. --North Korea. When is the last time even 
staff there went to North Korea? And I now have a different 
hat. And U.S. Institute of Peace, as we know, is very 
bipartisan. Certainly, one of the things I would like to try to 
do is more of relationship and dialogue between our 
congressional folks and, say, the Korea Workers Party in 
Pyongyang, you know, something like that. I think that is----
    Senator Kaine. Well, I really appreciate this discussion, 
and I am going to work with my Republican colleagues, because I 
hope that they will insist the same with respect to President 
Trump on a North Korean negotiation as they insisted with 
respect to President Obama in an Iranian negotiation, that it 
should not happen unless and until there is a meaningful 
process for congressional review.
    The last question I want to ask is this. Here is my concern 
about the negotiation. I think we have all kinds of concerns 
about, does each side describe ``denuclearization'' the same 
way? I am concerned about a negotiation where the U.S. gets a 
short-term win on the Peninsula at the cost of ceding broader 
American involvement in the region, to the detriment of allies 
like Japan, South Korea, and others. I would not want to do a 
deal that would ultimately, for example, be celebrated in China 
as the U.S. backing away from the region, even though it might 
be positive on the Korean Peninsula. Am I right to worry about 
that?
    Dr. Cha. Sure. I think so, Senator. I mean, when we used to 
do the negotiations, we tried to keep in mind that we cannot 
let our North Korea policy get ahead of our alliance policy, 
and that whatever deal we make has to make the U.S. stronger in 
Asia, not weaker. And so, I do--I mean, it was part of the 
orientation of my initial statement. I worry that we might want 
a deal too badly and then put things on the table that hurt us 
in the long term.
    Ambassador Yun. I would agree with you, we really do not 
want to do anything that would degrade the alliance. However, 
having said that, our military is involved in a wide range of 
exercises, wide range of role there. Some of them deeply 
worrisome for North Korea, because, whenever there is an 
exercise, they have to get ready, they have to spend the 
limited amount of fuel that they have, and so on. So, in the 
past, we have had a discussion. And again, it is up to us to 
imagine what is on the table, in terms of those negotiations, 
and what is not. For example, we will, of course, say no 
reduction in troops, for example, but, is it okay to reduce 
some elements of some joint exercise? So, we should not really 
throw everything in and say, ``Do not touch anything to do with 
X,'' but, again, examine the outcome carefully.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Gardner. Thank you, Senator Kaine.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Could I talk to you a little bit about the fired military 
leaders? There has been media reports indicating that Kim Jong 
Un replaced three of North Korea's top military officials. The 
action comes only days before the summit between the United 
States and North Korea in Singapore. Some analysts suggest it 
might be a sign that the North Korean leader is worried about 
opposition from his military leaders regarding the nuclear 
talks. Other analysts suggest it might be part of a broader 
effort to exert control and usher in a younger generation of 
leaders. There is a story in today's Financial Times, ``North 
Korea Military Reshuffle Raises Hope of Nuclear Deal. Kim's 
Sacking of Old Guard Viewed as Effort to Keep One-Million-
Strong Army in Check.'' So, kind of, looking at what is out 
there, and this new news related to the upcoming summit, how 
significant do you believe this firing is of these leaders? And 
do you believe that the removal of the top military officials 
is a result of maybe even growing opposition from leaders to 
the summit?
    Dr. Cha. So, Senator, you know, we are always guessing when 
we look at internal palace politics in North Korea. There has 
been, under Kim Jong Un, during his 6 or 7 years in office, a 
steady stream of purging that has been taking place at very 
high levels. One of the positions that you mentioned, I think, 
was the army chief of staff. We have seen quite a bit of 
purging in that position for quite some time, very key 
positions within the military.
    I think it is entirely possible that the FT hypothesis that 
this might be to take out hardliners as they prepare for this 
meeting, it is certainly possible. And, if so, that would be a 
good sign. But, I think what it really points to is that this 
is obviously a big step for the United States, but it is a huge 
step for North Korea. I mean, this is a small, isolated country 
that is now agreeing to step on the world stage, as Joe said, 
in Singapore, where the entire world will be watching, 
uncertain of what the outcome of that meeting will be. So, 
there are huge stakes, huge gambles. So, I would not be 
surprised if there is some resistance inside the system to what 
Kim Jong Un is doing.
    Senator Barrasso. Anything you would like to add to that?
    Ambassador Yun. I think Victor is completely right. We do 
not know. But, one thing I think this does certainly signal is 
that Kim Jong Un is feeling increasingly confident that he can 
displace these folks, who have been there for a long time. So, 
he is bringing people who are closer to his age and maybe his 
outlook. So, I think, again, this points to signs that Kim Jong 
Un is feeling confident as he prepares for Singapore.
    Thank you.
    Senator Barrasso. Okay.
    In terms of sanctions relief, I wanted to visit with you 
next about that. The United States has put in place significant 
economic sanctions against North Korea. Our Nation has really 
rallied the international community to join in imposing serious 
sanctions and pressuring North Korea to denuclearize. The North 
Korean regime is feeling the impacts of the maximum pressure 
campaign. During the Shangri-La dialogue in Singapore on 
Sunday, Secretary Mattis stated, ``North Korea will receive 
relief only when it demonstrates verifiable and irreversible 
steps to denuclearization.'' So, it is clear that the Trump 
administration has learned from the mistakes of the previous 
administration, and is trying to ensure that we do not give 
away money and sanction relief up front without achieving a 
permanent solution.
    Could you talk about what specific actions you believe 
demonstrate verifiable and irreversible steps on 
denuclearization?
    Dr. Cha. So, the first thing I would say, Senator, and I 
want to say for the record, is that, for a very long period of 
time, everybody said sanctions do not work, and that they do 
not work on North Korea. I just want to say, for the record, 
sanctions work. And we usually do not know that until they 
actually come to the table, as they have this time, and then we 
do not even talk about whether the sanctions worked, or not. 
They were clearly, as you said in your statement, one of the 
main reasons why North Korea is at the table, because the 
sanctions are working.
    In terms of the steps that would be required for any sort 
of consideration of relaxation, you know, again, very clearly, 
I think the first and most important step is a complete and 
full declaration of all of their weapons, precursors, 
facilities, and expertise that would then be fully verified by 
an international body--IAEA, whatever it might be. That is the 
first and most important step that would signify something 
different from what we have seen in the past failed agreements. 
And then we would actually have to see inspectors going in and 
start the process of securing, disabling these capabilities. 
Those would be tangible steps that then could take us down a 
path of removing some of these sanctions.
    Ambassador Yun. I would agree completely with that 
definition, sir.
    Senator Barrasso. Thank you.
    And then, in terms of previous efforts, North Korea poses a 
serious national security threat. The world would be a safer 
place with North Korea no longer having Nuclear weapons. The 
United States has previously engaged in, I think, four major 
sets of formal nuclear and missile negotiations with North 
Korea over the years. It is important that we learn from 
previous mistakes. So, President Trump has been very clear that 
he will walk away if he is unable to get a good deal with North 
Korea. Can you talk about what lessons we might have learned in 
previous negotiations that we should be thinking about, going 
into these discussions next week?
    Ambassador Yun. So, I would say the key lesson we learned 
was: really do specify everything on the paper. I mean, for 
example, the last negotiations, what we call ``Leap Day'' 
agreement, and that failed because of satellite launch. If you 
want to include satellite launch, it must say so on the paper. 
This is why the follow-up work, staff-work or lower-level 
negotiations, I believe, are very important.
    Thank you.
    Dr. Cha. I think one of the most important lessons, and it 
is particularly appropriate for what is going to happen next 
week, is to really understand the history of the negotiations, 
because, unlike us, the North Koreans have the same people 
doing these negotiations for the past three decades. All the 
people involved in the current engagement are all people that 
Joe and I know well, because they were the people who were 
doing it, in my case, during the Bush administration, 10 years 
ago, or even before that. And what we do not want to do is walk 
into a situation where the North Koreans put things on the 
table that they have put on the table before, and we walk away 
thinking those are new things.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Markey [presiding]. Thank you. I thank the Senator 
from Wyoming.
    Now, there are two roll-calls, which have been called on 
the floor, of the Senate, which is why Senators are arriving 
and departing, so that they can ensure that they are voted on 
both of the matters. So, we are going to continue the hearing 
and await other Senators returning to the hearing.
    So, my next question is this: If North Korea backslides, 
would you support additional sanctions as a way to stave off a 
military confrontation on the Peninsula? In other words, using 
intensified economic sanctions rather than moving to a military 
option?
    Ambassador Yun. Again, I think we are--it has been clear 
that sanctions have worked, and they have worked well. And so, 
if North Korea backslides, I would highly recommend we both do 
the multilateral sanction through U.N. Security Council as well 
as what I would call bilateral sanctions, or unilateral 
sanctions, with our allies, such as South Korea, Japan, 
Australia, EU, and so on. So, I think the critical question of 
core sanctions is, how much do we have China with us. And so, 
it is very important that the U.N. sanctions, because China 
will only work with us in New York. Those would be very 
important negotiations, sir.
    Senator Markey. Okay.
    So, Dr. Cha, that is the big question. There are reports 
that China, itself, is already backsliding on the sanctions 
that have been imposed. And yet, we know that, while the 
President says that there have already been maximum sanctions, 
we know that that is not the case, because China has not cut 
off the crude oil which flows into North Korea, which is 
essential for the North Korean economy. So, cutting off the 
crude oil flow into North Korea would essentially be maximum-
plus. So, do you think that there is a likelihood that China 
would, in fact, cooperate with us if North Korea is not 
cooperating, in terms of their willingness to impose additional 
sanctions on the North Korean regime?
    Dr. Cha. Yeah, it is a very good question, Senator. And the 
thing that concerns me right now is that if we assume a good-
faith negotiation in which North Korea makes clear that it is 
unwilling to part with all of its capabilities, and we go to 
sanctions, the Chinese situation is different now, because, in 
the past, they were in a period of 6 or 7 years of political 
alienation with the North Korean regime. And, as we have seen, 
they have had two summits within 40 days, and there clearly has 
been a change in the Chinese position on North Korea after the 
Party Congress to one that is much more focused on engagement. 
So, the point of all this is to say that, even if we do make a 
good-faith effort at negotiation, and the North Koreans balk, 
and we go back to sanctions, it will be--this will take a 
particular type of strategy or approach by the President and by 
the administration, by the Congress, to China to convince them 
to go back to sanctions, because they have equities now in the 
North Korea relationship that they did not have in the last 
quarter of 2017 or the beginning of 2018, when we were pursuing 
maximum pressure.
    Senator Markey. And, again, laying out what those equities 
are that China now has in 2018 that they did not have in 2017 
in North Korea, what are those equities?
    Dr. Cha. I think they found themselves in--at 2017, as they 
were approaching their own Party Congress, to be in probably 
the worst position China has ever been on the Korean Peninsula, 
which was to have bad relations simultaneously with both North 
and South Korea--North Korea over the missile testing and the 
nuclear tests, South Korea over the THAAD deployment. And so, I 
think they have shifted to an all-out engagement strategy with 
both Koreas now that is meant to sort of--to balance the U.S. 
influence on the Peninsula. And so, when the President starts 
talking about peace treaty, these other sorts of things, those 
weigh directly on Chinese equities, and I think that is part of 
the reason they have pushed for a new relationship with both 
Koreas.
    Senator Markey. Okay. So, if, in this negotiation, the 
North Korean officials ask President Trump, ask American 
negotiators, to be taken off the Specially Designated 
Nationals, or SDN, list, which are targeted sanctions for 
human-rights-related issues, not for proliferation, how do you 
think the United States should respond to that request, at this 
time?
    Dr. Cha. So, this also goes back to the question from 
Senator Barrasso about lessons we have learned from the past. 
And I feel like one of the lessons--and we--I would admit that 
we did not hold true to these lessons--one of the lessons is, I 
think we need to only give up sanctions directly related to 
concrete action on those things upon which the sanctions were 
imposed. So, taking individuals off the SDN list when there are 
actually no improvements in human rights situation in the 
country, to me, do not make sense. And we start getting into 
trouble when we start putting things on the table and being 
willing to relax those for political or negotiation reasons, 
not for the actual purpose of the sanctions. It hurts us in the 
long term, and it hurts our equities in the region and with our 
allies.
    Senator Markey. Okay. Let me come back to you, Mr. Yun. 
Satellite imagery suggests that a reactor at the Yongbyon 
nuclear complex was operating this past month, indicating 
possible plutonium reprocessing. If North Korea is, in fact, 
reprocessing plutonium, what do you think we can infer about 
North Korea's intentions? Would that activity be consistent 
with statements from a country that says that it intends to 
denuclearize?
    Ambassador Yun. It would be a very disturbing signal for 
them to do another round of reprocessing now. And that is why 
we need a verification regime, a strong verification regime, to 
be in place as we reach commitments. So, I think, again, we 
need accounting, declaration, verification. So, all these. But, 
however, I would agree with you, or I would also assess, that 
this is not a good sign, for them to be reprocessing right now.
    Senator Markey. And, ultimately, do you both believe that 
it has to be the International Atomic Energy Agency, which is 
the verification mechanism that we use, to ensure that there is 
compliance?
    Ambassador Yun. I think that is the best and also most 
acceptable. And, you know, as you know, the teams are made up 
of many nationals. And I know that IAEA, as we speak, is 
already preparing for--has a team already training.
    Senator Markey. Okay, beautiful.
    Senator Risch.
    Senator Risch. Thank you very much.
    I want to respond to a couple of things here. Senator 
Cardin was concerned about what is not happening in the White 
House. And I can understand, perhaps, his concern, in that it 
is not getting a lot of publicity. But, look, I want to assure 
Senator Cardin, I have been there, I have talked with the 
people that are working on this. This is a very professional 
national security team that is working on this. This is made up 
of not just individuals from the Trump administration. People 
on this national security team, and particularly those dealing 
on the North Korea issue, are people who have been there 
through various administrations. I believe the President is 
getting excellent advice from that national security team so 
that no one thinks that the President is sitting in the Oval 
Office reading a magazine and thinking about this thing. He is 
getting very deep and detailed briefings on this. And I feel 
very comfortable about where they are headed.
    As far as Senator Kaine's concern about Congress's role 
here, look, I believe, just as I did with the Iranian deal, 
that this is something that the founding fathers actually 
thought about. And they said the first branch of government has 
a role, the second branch of government has a role. And the 
second branch, after they negotiate, needs to submit it to the 
United States Senate for a two-thirds vote as a treaty. I can 
tell you personally that the President of the United States has 
told me personally, the Vice President of the United States has 
told me personally, the Secretary of State has told me 
personally that it is their intent to craft this in such a way 
that it is a treaty and will be submitted, under the 
Constitution of the United States, as a treaty to the United 
States Senate for verification. So, they are viewing it in that 
regard.
    And in that regard, they also understand that the way this 
is done is with, not just the consent, but the advice and 
consent. And there is a lot of advice that they are getting 
right now. A lot of it publicly, and some of it privately. But, 
they take that very seriously. And they know that the 
Constitution requires them to not only get consent, but to get 
advice. And a lot of us felt very abused during the Iran deal, 
that that advice just was not landing with anything that it 
needed to land with. So, in that regard, I think that these 
are--we have a good structure in place as to how this is going 
to be handled and where we are going to go.
    And, lastly, let me say that I know people have said, 
``Well, how do we know if they are acting in good faith?'' 
Look, those of us that are in this business, you cannot sit 
down and write a definition, ``This is good faith,'' but you 
can read between the lines, and you know it when you see it. 
And when we had the Iran deal, and they were making offers 
about how the inspections were going to take place, look, if 
you are acting in good faith, an inspection is an inspection. 
Anytime, anyplace, you open the door and you go in and inspect. 
If you remember, on the Iran deal, they had this one particular 
facility we were really interested in, and said, ``Well, when 
you want to inspect it, you give us plenty of advance notice, 
then you come to the gates, we will take pictures, we will 
bring the pictures back out to you, and you can look at them.'' 
Does that sound like good faith? You do not have to be a rocket 
scientist to figure out that that is not good faith. So, I 
think we are going to know good faith really quickly when we 
see it. And I go back to my premise. If the two leaders can 
reach an agreement on the specific objective, and both pledge 
to work at it in good faith, and both do, this can get done.
    Thank you, Mr. Chairman.
    Senator Gardner [presiding]. Thank you, Senator Risch.
    And I will ask one quick question. The opportunity I had 
earlier this week to meet with the Foreign Minister of Japan 
was incredibly telling. We talked about the concerns regarding 
abductees, concerns regarding short-range/intermediate-range 
missiles, and, of course, Japan's--the relationship that we 
have with Japan, the opportunity to engage South Korea, Japan, 
the United States in regional economic and security 
conversations. Incredibly important. So, could you give me a 
brief synopsis of equities that Japan has at stake and how we 
can look out for them, maintaining that important regional 
security partnership?
    Dr. Cha.
    Dr. Cha. So, I think for--Japan has always played some role 
in our negotiations and agreements with North Korea. During the 
Agreed Framework, they were one of the original KEDO members, 
the Korea Energy Development Organization. During the Six Party 
Talks, they were one of the five countries that were providing 
interim fuel assistance to North Korea. And so, they will be an 
important part of any future deal with North Korea. And, you 
know--and it is very important for the United States, in these 
negotiations, to be aware of countries like Japan--our key 
ally, Japan, and their equities, whether it is on, as you said, 
short-range and intermediate range ballistic missiles, the 
issue of the abductees, the abductee citizens, and sanctions. 
Japan has been one of the strongest supporters of the sanctions 
regime. And, even if we talk about peace treaty or a peace 
agreement on the Peninsula with threats remaining to our ally, 
whether it is ballistic missile threats or even conventional 
threats, it is very important not to allow those equities to be 
undercut, because, again, we will not be making ourselves more 
secure as a result of this agreement if we are undercutting our 
allies.
    Senator Gardner. Ambassador Yun.
    Ambassador Yun. Thank you. I do not think I can 
overemphasize the importance of Japan in our strategic 
considerations in Asia and Northeast Asia. We have 50,000 
troops stationed in Japan, and they represent what forward-
deployment is all about. And, as Victor mentioned, they have 
been solidly with us throughout, whether it is in Six Party 
Talks or before. They have also, in previous agreements, like 
Agreed Framework, agreed to pay a big share of the light-water 
reactors that we had committed to. So, in any agreement that we 
eventually reach with North Korea, Japan has to be a part of 
it. And so, I think, to me personally, it is very worrisome 
that there is not as much consultations with Tokyo as there 
should be. And so, again, I think this is a key part of what 
some of our closest allies are saying, ``You need to understand 
us a lot more.'' And so, I would hope, going forward--I know 
that the Prime Minister of Japan is going to be in town in a 
few days--that these consultations at a high level accomplish 
the kind of shortcomings we have had over the last few months.
    Thank you.
    Senator Gardner. Thank you, Ambassador Yun.
    Senator Markey, do you have anything else for----
    Senator Markey. Yes, I do.
    Senator Gardner. Please.
    Senator Markey. Thank you, Mr. Chairman, very much.
    At the end of the day, do you believe that North Korea will 
want to retain a civilian nuclear power plant capacity, 
infrastructure, in the country? Do you think that will be 
something that ultimately they insist upon, and, as a result, 
obviously, will necessitate an IAEA full-scope inspections 
regime that is imposed upon it?
    Ambassador Yun. I firmly believe they will insist on it, 
that this is a right that they believe is given to every 
country, virtually, to have a peaceful use of nuclear energy. 
And I do believe that, at the end of the day, that is something 
we should seriously consider.
    Thank you.
    Senator Markey. Okay, great.
    Dr. Cha.
    Dr. Cha. I agree. They wanted it in the 1994 deal, they 
wanted it in the 2005 deal. They, of course, do not have the 
power grid to support light water reactors in the country, but 
they seem to want that rather than conventional electricity or 
other things that would do much more to increase energy 
efficiency in the country.
    Senator Markey. In terms of where they see themselves 
positioned right now, how much of this, from your perspective, 
is related to North Korea's reaction to the imposition of 
sanctions on them and the extent to which they are now biting 
in the economy of North Korea? And how much of it is related to 
their sense that they have completed their ICBM, they have 
completed their nuclear weapons development program 
sufficiently to provide them with the deterrent which they have 
always been seeking?
    Ambassador Yun. Senator, I think they are both factors, 
that imposition of sanctions, which have been biting for some 
time now. And, as well as--I mean--you know, it may seem 
ironical as well as their regained confidence as shown by their 
nuclear tests and ICBM tests.
    Two other factors that should be taken into consideration. 
It was the election in South Korea last year, the election of 
President Moon, who is much more progressive and wanting the 
tradition of reconciling. And remember, it was him who brought 
the deal to the White House, not anyone in the administration.
    Second factor is China. China imposing sanctions throughout 
last year, to the extent that they did, also really did hurt 
China.
    So, I would say it is a combination of those, and it is 
very hard to say, at the moment, which one was the overriding 
concern. And, of course, the last thing we have to remember is 
that this is a 34-year-old leader, and he may be seeing the 
future in a different prism.
    Senator Markey. May I just--I will ask you, Dr. Cha. I am 
wondering where you might perceive a difference between what 
South Korea wants to achieve in these discussions and what the 
United States wants to perceive. Where would that difference 
be, in terms of what is acceptable to them and what would not 
be acceptable to us?
    Dr. Cha. So, I think the--first, in the overriding 
objective for South Korea is that they want peace on the Korean 
Peninsula. They do not want a second Korean War. I mean, this 
is clearly a threat to them as well as it is to us. But, I 
think they believe that military solutions are not the answer 
to this problem, particularly preventive military solutions.
    As Joe mentioned, this is a more progressive government, 
and they are forward-leaning, in terms of engagement with North 
Korea. I think that would make them more predisposed to moving 
more quickly on things like peace declarations or even a peace 
treaty, be more willing to move more quickly in terms of 
enlarging the humanitarian carve-out under the sanctions 
regime, or even moving towards lifting some of those sanctions, 
perhaps for political reasons rather than for the direct 
technical reasons that we have already talked about in this 
hearing. I think, overall, they are still pretty much in line 
with the U.S., but my guess is that they would be more forward-
leaning in terms of some of the incentives that could be 
provided to the North Koreans as a way to gain more traction in 
the negotiations, going forward.
    Senator Markey. Do you agree with that?
    Ambassador Yun. Yes, I agree with that. I think the key 
difference that we will feel is that South Koreans will want to 
lift sanctions way earlier than Washington.
    Senator Markey. And our reaction to that should be?
    Ambassador Yun. I think, again, hold off for a while.
    Senator Markey. Do you agree with that, Dr. Cha?
    Dr. Cha. And I mean, if the North Koreans do things that 
remove the causes for the sanctions, then we can lift them, but 
not for other reasons.
    Senator Markey. Okay, great. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Senator Murphy.
    Senator Murphy. Thank you very much. Thank you, Chair and 
the Ranking Member, for having this hearing.
    Thank you for sticking with us for so long.
    I am going to hope that I am not treading ground that 
others have covered, but I had two subjects that I wanted to 
raise. The first is about the aftermath of talks that are 
perceived by some, if not all, to fail to meet expectations. It 
is interesting that I think everyone agrees it is probably 
going to be a bit of a muddle as to what comes out of next 
week. But, there have been reports that there are some very 
close to the President who feel much more strongly about a path 
that runs through military action than others. And you have 
both spent time in and around the administration. I want to ask 
two questions. One is a legal question. I know you are not 
lawyers, but I am sure you have thought about this second 
question.
    The first is, do you worry that there are going to be those 
close to the President who are going to use a failure to meet 
expectations, either internal or external expectations, as an 
excuse to push early military intervention? And (b), in your 
experience, do you think that the executive has that ability, 
short of a congressional authorization? John Bolton did write a 
piece, before taking up this post, in which he argued that the 
executive does not have to come to Congress in order to take 
preemptive military action against North Korea. Do you agree 
with that analysis, or do you think that the President has to 
come to Congress prior to launching a strike?
    Dr. Cha. So, on your first question, Senator, I do not know 
the answer to that. There may be some who try to use failed 
negotiations, or the failed summit, as a pretext for taking 
more coercive military measures. On your second question, I am 
not a lawyer, but I know lots of lawyers. And, particularly 
when we are talking about a preventive military strike, a 
preventive--not in defense, not in retaliation, but a 
preventive military strike, everyone I have talked to said that 
you need Congress. You cannot do that on your own.
    Senator Murphy. Right.
    Mr. Yun.
    Ambassador Yun. Senator, I do worry about failure leading 
to military action. I think that is clearly among the world of 
possibilities out there. And, you know, I mean, we experienced, 
of course, you know, throughout last year, really what I felt 
was a fairly dangerous situation, when a military option was 
being talked about quite openly, including things like 
preventive, preemptive, bloody nose, whatever. And so, we have 
always considered military action during over the past 60 
years, but we have always said it is not worth another war on 
the Korean Peninsula to get those weapons out or programs out. 
So, I would hope, again, the calmer, cooler heads would prevail 
on that.
    I think it would be, for me, much more reassuring, 
certainly, if Congress were to assert your role and have any 
military action be authorized by the Congress.
    Thank you.
    Senator Murphy. Let me--I will not press you on the second 
question, but I will press you on the first one. Your worry 
about failure being a pretext for military action, I know you 
have been pressed on this question, probably in a number of 
different ways, about what constitutes failure, what does not. 
But--it is hard to game this out, but what would be a situation 
in which there might be progress made that would be enough to 
continue deliberations, but, for some, it might not be enough? 
What would failure look like that would worry you that there 
would be calls, or room for calls, for military action?
    Ambassador Yun. I think, for me, failure would be an abrupt 
end and no more meetings scheduled, no dialogue.
    Senator Murphy. Right.
    Ambassador Yun. And a returning back to where we were last 
year, to me, that would be a failure.
    Senator Murphy. My second question is about this question 
of U.S. presence in South Korea. And, again, I know you have 
talked around this. But, specifically, what are the potential 
options that we or the South Koreans might end up presenting to 
the North Koreans regarding the future disposition of U.S. 
forces and personnel in South Korea? Obviously, this is going 
to be one of the demands. Many people believe that, when he 
says ``denuclearization,'' Kim means the removal of all or a 
substantial amount of U.S. personnel. What are the range of 
options, in the short term and the long run, that would be 
responsible for us to consider, with regard to our posture in 
the Peninsula, if we get the kind of assurances we are hoping 
for on the nuclear program of North Korea?
    Ambassador Yun. I really do not think our alliance 
relationship, especially the disposition of U.S. troops in 
South Korea, should be any topic of discussion or negotiations 
with North Korea.
    Senator Murphy. To you.
    Dr. Cha. So, I would say, first of all, I think, in 
general, it would be great if we could bring troops home. I 
mean, in general, that would be a--if there is peace on the 
Peninsula and we could bring troops home, that would be a great 
thing. The concern I have is that we put things like that on 
the table for vague promises of denuclearization sometime----
    Senator Murphy. Right.
    Dr. Cha. --in the future. Now, the discussion of the 
disposition of U.S. forces, historically, for the United 
States, we have decided these things on our own. The South 
Koreans would like us to consult more with them on this, but, 
historically, the United States, when Nixon pulled out the 7th 
Infantry Division, we did this all on our own. There is a plan 
negotiated between the United States and South Korea about 
movement of forces to Camp Humphreys, so there is a whole plan 
for this. And what I worry is that this should not all be 
short-circuited by, you know, the flashy, you know, thing that 
is the North Korean negotiation. It should really be something 
discussed only between allies and not leveraged into North 
Korea.
    Senator Murphy. So, I do not disagree. I guess I am asking 
in the context of what Kim will need and what he will ask for. 
Is it realistic to believe that you are going to get the 
commitments you think are necessary without putting that 
question on the table?
    Dr. Cha. I--so, I think it is certainly--it is certainly 
possible----
    Senator Murphy. Possible.
    Dr. Cha. I mean, I think he may be more after our nuclear 
umbrella than he might be after the troops.
    Senator Murphy. Right.
    Dr. Cha. Previous South Korean Presidents who have talked 
to past North Korean leaders have said the North Koreans are 
not averse to having some sort of military presence on the 
Korean Peninsula, as long as it was not directed at them. I do 
not know whether that is true, or not. But, we are the ones who 
have been talking about putting it on the table. The----
    Senator Murphy. Right.
    Dr. Cha. --North Koreans have not--in all they have thus 
far, have not been the ones demanding that it be on the table.
    Senator Murphy. Right.
    Ambassador Yun. Yeah. I would note that, in both Agreed 
Framework and Six Party Talks, and all previous agreements, 
there was never a hint of their demand that we would put troops 
on the table. So, I do not see that occurring. And I think 
Victor is right, this seems to be a discussion that is kind of 
going on in Washington without necessarily going on in 
Pyongyang.
    Senator Murphy. Yeah, great. Thank you.
    Senator Gardner. Thank you.
    And we are never going to let you go.
    Senator Risch.
    Senator Risch. Briefly.
    You know, the question was asked about whether you are 
worried that failure might lead to military action. And, of 
course, that is always a concern. But, I have to say that, 
watching this as I have, and being as close to it as I have 
over this period of time, I am much less concerned about that 
than I was last year and early this year. I mean, the road we 
were headed down was almost a certainty of military action. And 
so, you know, am I concerned that failure might put us back 
there? Very possibly, failure would put us back there. But, at 
least we are where we are today and have made very, very 
significant progress, as I said, with the change in tone and 
everything else, although we are still clear-eyed about how 
this could end.
    And that brings me to my last point, and that is that I 
think, you know, that--the question was asked, which played a 
bigger role here, the sanctions regime or the insecurity that 
Kim Jong Un felt? And I think it is the latter. I think that he 
came to the conclusion that his regime was going to come to an 
end, one way or another, if he continued down the road that he 
went down. The sanctions certainly are a concern, they 
certainly hurt people there. They do not hurt Kim Jong Un or 
his family or the elites, but they do hurt the people there. 
But, his number-one goal is not to have nuclear weapons, his 
number-one goal is to have the security that his regime will 
stay where it is. And I think that that has been recognized. 
And I think, as we proceed with negotiations, that is what we 
have got to do to get to a point that everybody can agree to.
    So, anyway, with that, again, both of you have been very 
helpful in thinking this through and getting out for the 
national discussion the issues that are at play here and the 
importance of tamping down expectations that this is a one-shot 
deal, where they sit down, they come out and sing Kumbaya and 
say, ``This is all taken care of.'' It is not. It is going to 
be complex. It is going to take time. And I think, because of 
the importance of this, everyone needs to be patient with it.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Risch.
    Senator Markey.
    Senator Markey. Yeah, thank you. One quick question.
    I think, at the end of the day, the question is going to 
be, what kind of security guarantees can the United States give 
to Kim if he gives up his nuclear weapons program? And I would 
like you both, if you could, just to talk about, what is the 
mechanism we would use to create that security guarantee, given 
what John Bolton said about Gaddafi, said about Libya, the 
constant noting of what happened in Iraq by North Korean 
officials? What is, in your opinion, the format for a security 
guarantee that we could provide, in conjunction with allies, 
that would give him the confidence that he could give it up and 
not jeopardize his own life?
    Dr. Cha. So, Senator Markey, in a book that I wrote a few 
years ago, I listed, I think, seven pages of security 
assurances that previous U.S. administrations have given to 
North Korea, the most recent of which was during the Bush 
administration that I worked for, where we said we would not 
attack North Korea with nuclear or conventional weapons. There 
are other things we could do, in terms of peace treaty 
normalization, all of these other things. But, to me, in the 
end, the biggest threat to the regime's security is from within 
itself. So, when it talks about pursuing nuclear weapons and 
economic development, that is the closed-loop circle they have 
to get themselves out of, because, as they pursue that economic 
development and presumably opening to the outside world, that 
will be the biggest threat to the regime. And we cannot 
guarantee that.
    Senator Markey. So, you do not think his greatest fear 
would be a U.S. or allied attempt, once he no longer has 
nuclear weapons, to then create that incitement internally, to 
support it, and then to lead to his demise. You do not think 
that that is really a concern which he has. It is all internal, 
it is not external, in terms of what then the plot might be, as 
it was in Iraq and Libya.
    Dr. Cha. I think, for paranoid leaders like the North 
Korean leader, that is always a concern. But, I do not think 
that would be what the U.S.-ROK plan would be. And I think, in 
the end, the biggest threat would be the economic opening.
    Senator Markey. I appreciate that.
    Mr. Yun.
    Ambassador Yun. I mean, as a diplomat, I have always said, 
listen to what they want. You know? And the phrase they use 
more often than anything else is, ``You have to remove hostile 
intent.'' And so, you ask them, ``What does 'hostile intent' 
mean?'' And they would counter, ``When we do not have no more 
relations.'' So, I think normal diplomatic relations is 
important. And that is something that we should seriously think 
about.
    Second thing is, of course, there are security assurances, 
such as a nonaggression pact, that we could go into. And 
another thing is no first strike. I mean, all these have been 
used before. But, again, if you want to test what they will do, 
you have to walk the path that they put it on for you.
    Senator Markey. I just want to thank you both of you for 
your excellent testimony today, and for your----
    Dr. Cha. Yes, sir.
    Senator Markey. --service to our country over many, many 
years. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    And I think it is important at this time to think about 
that, you know, the hostile-intent question and look at it 
through the lens of something that Admiral Harris said when he 
was at PACOM, which is now, as of this week, Indo-Pacific 
Command, as a reflection of our free and open Indo-Pacific 
strategy. Harry Harris, testifying before Congress, said, ``It 
is not our intention to bring Kim Jong Un to his knees, but to 
his senses.'' That is not a hostile intent. That is an 
opportunity for the United States to help bring that peace on 
the Peninsula. And I hope, as we all hope, that the Singapore 
Summit can be the first of a conversation that will lead, 
indeed, to that peaceful resolution.
    I, too, want to thank both of you for your service to this 
country, for your time and testimony today.
    Thanks, to all of you, for attending today's hearing. 
Again, in October of 2015, this room would have been mostly 
crickets and just a couple of us up here. So, thank you all for 
being a part of this, the witnesses providing us, you know, the 
testimony.
    For the information of members--and I apologize to Senator 
Merkley for not being able to get to him before he left for the 
votes--the record will remain open until the close of business 
Thursday, including for members to submit questions for the 
record. This is your homework assignment. I kindly ask the 
witnesses to respond as promptly as possible, and your 
responses will be made part of the record.
    We are going to be having a little conversation outside 
with media, following this.
    With the thanks of the committee, this hearing is now 
adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
